<html>
<title> - LESSONS FOR COUNTERING AL QA'IDA AND THE WAY AHEAD</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-174]
 
           LESSONS FOR COUNTERING AL QA'IDA AND THE WAY AHEAD

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 18, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
00-000                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           ROBIN HAYES, North Carolina
JIM COOPER, Tennessee                JOHN KLINE, Minnesota
JIM MARSHALL, Georgia                THELMA DRAKE, Virginia
MARK E. UDALL, Colorado              K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              JIM SAXTON, New Jersey
KIRSTEN E. GILLIBRAND, New York      BILL SHUSTER, Pennsylvania
KATHY CASTOR, Florida
                 Bill Natter, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, September 18, 2008, Lessons for Countering al Qa'ida 
  and the Way Ahead..............................................     1

Appendix:

Thursday, September 18, 2008.....................................    33
                              ----------                              

                      THURSDAY, SEPTEMBER 18, 2008
           LESSONS FOR COUNTERING AL QA'IDA AND THE WAY AHEAD
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1
Thornberry, Hon. Mac, a Representative from Texas, Ranking 
  Member, Terrorism, Unconventional Threats and Capabilities 
  Subcommittee...................................................     2

                               WITNESSES

Arquilla, Dr. John, Professor, Department of Defense Analysis, 
  Naval Postgraduate School, Author of ``Worst Enemy: The 
  Reluctant Transformation of the American Military''............     9
Jones, Dr. Seth G., Political Scientist, RAND Corporation, Author 
  of ``How Terrorist Groups End'' and ``Counterinsurgency in 
  Afghanistan''..................................................     3
Scheuer, Dr. Michael F., Senior Fellow, Jamestown Foundation, 
  Author of ``Through Our Enemies' Eyes,'' ``Imperial Hubris'' 
  and ``Marching Toward Hell''...................................     5

                                APPENDIX

Prepared Statements:

    Arquilla, Dr. John...........................................    61
    Jones, Dr. Seth G............................................    38
    Scheuer, Dr. Michael F.......................................    56
    Smith, Hon. Adam.............................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
                    LESSONS FOR COUNTERING AL QA'IDA

                           AND THE WAY AHEAD

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                      Washington, DC, Thursday, September 18, 2008.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. Good morning. We will call the subcommittee 
meeting to order. I thank Members and witnesses for being here 
today. I will start with an opening statement and turn it over 
to Mr. Thornberry for any opening remarks and then go directly 
to our witnesses.
    Thank you all for joining us this morning. I really look 
forward to the testimony this morning. We have a very 
distinguished and thoughtful panel on the issues around 
counterterrorism and how the struggle against al Qa'ida and 
violent extremists is going, the various component pieces of 
that struggle, certainly within the military, how we are doing, 
what is going on with the various pieces that the military is 
responsible for. And I think there are several issues that are 
going to be very interesting to hear about.
    We have really become very focused on a counterinsurgency 
counterterrorism strategy. Are we building a military to 
accommodate that strategy in terms of the training, in terms of 
the hardware, in terms of the very way the military is 
structured? How can we do a better job of that to respond to 
what is clearly going to be the fight we face now and for the 
foreseeable future?
    Those are some very significant issues that I think our 
witnesses can help us address. I do think there is a lot that 
we are doing right. I myself and many on the subcommittee have 
had the opportunity to go around the world and tour some of our 
special operators to see what Joint Special Operations Command 
(JSOC) has been doing in Iraq and Afghanistan, and I think on 
the direct action piece we have made a lot of correct 
decisions. The fusion cells that have been developed to bring 
together all the various elements, both of the military and of 
the intelligence community and elsewhere, to make sure that 
everybody has the best information possible to find, fix and 
finish on the targets that we are trying to find, the high-
value targets, has been very successful. Certainly it has been 
very successful in Iraq and other parts of the world as well. 
And I really applaud our special operators and the military for 
the job they are doing there.
    The areas where this subcommittee thinks we can do better 
and do more work on is on the indirect piece and also on 
strategic communications, the indirect piece being more classic 
counterinsurgency, stopping insurgencies before they take hold. 
Right now the best model for that, in terms of what we are 
doing here in the U.S., I believe, is in the southern 
Philippines where we have successfully worked with the 
Philippine Government, with the locals in the southern islands 
to build up their capabilities by, through and with working 
with them, not having the U.S. take the lead but in training 
the local folks to counter the insurgency and also providing 
the proper development in those communities to stop the 
insurgency before it takes hold, to basically make the local 
citizens happy with their environments so they are less willing 
to follow an insurgency. I think that model needs to be 
replicated and used across the broader spectrum of the theaters 
that we face insurgencies in.
    And lastly is on the strategic communications piece. 
Because at the end of the day, this is an ideological struggle 
as much, if not more, than it is a military struggle. We can do 
a very effective job of direct action of identifying the top 
violent extremists, the top leaders and al Qa'ida in the 
Taliban, in the insurgencies in Iraq, in capturing or killing 
them and thereby destabilizing their efforts. But if more 
continue to be created, if more terrorists, if more insurgents 
are generated, then we will simply be fighting on a treadmill 
that is going faster and faster and we won't get there.
    We have to win the broader ideological war, to stop 
radicalization before it occurs, and I believe we need to do a 
better job of figuring out precisely what our message needs to 
be and who to work with our various partners in the world to 
make sure that that message gets out consistently and 
effectively.
    I know Mr. Thornberry has done a lot of work in this area, 
has been very focused on it, and I appreciate his efforts on 
that.
    Those are some of the issues. Certainly there are more. Our 
witnesses will touch on those. To give us an idea going 
forward, you know, as we look to a new Administration, to a new 
Congress, what is our best and wisest counterterrorism strategy 
and what do we need to do to get there. I am very much looking 
forward to the testimony of our witnesses. And with that, I 
will turn it over to Mr. Thornberry for any opening remarks he 
has.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 37.]

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM TEXAS, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Thornberry. Thank you, Mr. Chairman. And first I would 
like to say I appreciate the subject of this hearing. Too often 
in Congress we review and criticize what has been done in the 
past rather than try to learn lessons from the past to help 
light the way for what should be done in the future. And that 
is what this hearing, and I hope others, is all about. Because 
however you feel about how we got here, we are where we are. 
And the question is, now what? And that, as you said, is for a 
new Administration and new Congress to help navigate.
    Now we have a very different situation in Iraq than we have 
had in some time. As somebody said on television recently, the 
strategy has been wildly successful beyond what anybody 
expected. And yet we have al Qa'ida regrouping in an area of 
the world that is not really governed by any sovereign nation. 
Yesterday we got reminders again that al Qa'ida or related 
groups are still intent on attacking U.S. interests and 
embassies throughout the world. So the situation is changing, 
and yet I do believe there are lessons to be learned that help 
light the way ahead.
    You have assembled a group of diverse and interesting 
witnesses. I have read their testimony, and I have read books 
from each of them in the past. I am not sure I fully agree with 
what any of them say completely, but that is what makes for an 
interesting hearing. I know they will have interesting and 
provocative things to say. So I look forward to the exchange 
and their testimony.
    Mr. Smith. Thank you very much. I will introduce the panel 
first. Then we will go left to right, starting with Dr. Jones. 
First on the panel is Dr. Seth Jones, who has done a number of 
things but most recently with the RAND study on 
counterterrorism, how terrorist groups end, basically doing an 
exhaustive analysis of, I think, well over 600 terrorist groups 
that have been around since the late 1960's and examining how 
you defeat them, how you ultimately win. Very much looking 
forward to the testimony. I have read the study. I think it 
raises some very, very interesting issues and look forward to 
hearing what you have to say on that.
    Then we have Dr. Michael Scheuer, who spent 22 years in the 
Central Intelligence Agency (CIA) and has also written 
extensively on radical Islam, how we are combating it and where 
we are not succeeding and some ideas for how to go about doing 
that. I look forward to his testimony.
    And then Dr. Arquilla, who has also written extensively on 
military transformation, and most recently in ``Worst Enemy: 
The Reluctant Transformation of the American Military,'' a book 
which I am actually reading right now and find fascinating. It 
is a great history, and I think lays out well some of the 
battles, whenever you are trying to make change within any 
military but specifically within the United States military to 
accommodate, to basically recognize emerging threats and change 
to meet them.
    I look forward to all your testimony, and we will start 
with Dr. Jones.

   STATEMENT OF DR. SETH G. JONES, POLITICAL SCIENTIST, RAND 
    CORPORATION, AUTHOR OF ``HOW TERRORIST GROUPS END'' AND 
              ``COUNTERINSURGENCY IN AFGHANISTAN''

    Dr. Jones. Thank you very much, Mr. Chairman, and thank you 
very much, members of the subcommittee. I will keep my comments 
very brief and lay out in general the results of the study we 
looked at.
    What was particularly interesting for us in doing this work 
was seven years after the September 11 attacks we found it 
striking that neither in the policy community nor in the 
government community there has been very little work on how 
groups historically have ended. We found that a little 
troubling in trying to design an effective counterterrorism 
strategy without having any sense of historically, for example, 
how groups have ended in the past.
    So what we did is then we compiled a list of about 648 
groups since 1968. We looked at a range of factors that could 
have contributed to the end of those groups that ended. And 
what we found was there are two major reasons how terrorist 
groups have historically ended.
    One is what we call groups deciding to adopt nonviolent 
tactics and join the political process. There are a range of 
groups, the Farabundo Marti Liberation Front (FMLN) in El 
Salvador, which have reached a negotiated settlement with the 
government. Second, we found slightly less from a percentage 
standpoint but quite significant what you might call 
clandestine operations, local police and intelligence agencies, 
in some cases Special Forces arresting or killing key members 
of the group. We found other instruments less useful as the 
primary instrument in the defeat of terrorist organizations, 
whether it was large numbers of military forces, economic 
instruments, in some cases the victory of terrorist groups.
    And again, in any counterterrorist strategy, what is clear 
is there are a number of instruments that will be used. What we 
looked at was which of these--in any counterterrorism campaign, 
one has to prioritize. What we found again is a couple of 
things. One is the maximization of what we call clandestine 
operations, use of intelligence assets and special operations 
assets, leveraging local actors; that is, minimizing large U.S. 
military footprint on the ground and maximizing local efforts. 
What we found when we looked at some of the data was, when we 
looked at some of the early successes against al Qa'ida in 
Pakistan, we found the most successful efforts tended to be 
clandestine operations with CIA, in some cases the Federal 
Bureau of Investigation (FBI) or U.S. military working with 
local Pakistani police and intelligence agencies in capturing 
or killing key members of the organization. Even when we looked 
pretty carefully at the Iraqi case most recently in places like 
Anbar, we found the most successful efforts not maximizing U.S. 
boots on the ground but, in the Anbar case, taking advantage of 
animosity against al Qa'ida in Iraq, supporting Sunnis, massing 
in the Ramadi police force, for example, and then providing 
support, placing tanks around the house of sheikhs, maximizing 
CIA assistance to some of the troops on the ground. And again 
the Anbar success, I think, was primarily one that you would 
call unconventional or surrogate warfare, not in maximizing 
U.S. forces on the ground.
    So just to conclude, again in the cases that we looked at, 
what we found was both in the U.S. experience and in the 
experience of how terrorist groups have ended, we found two 
major reasons. First was a political settlement that we found 
that was most likely to be successful when a group has very 
minimal aims. With the current situation against al Qa'ida, 
they do not have minimal aims. They are searching to overthrow 
multiple regimes. Therefore, a political settlement in our view 
is simply not possible, especially with key members of the 
group.
    That pushes us then towards much more clandestine 
operations rather than the overt use of military force, and we 
argue that that strategy has actually--when it has been used, 
has been more successful in places like Anbar or even in the 
Pakistani or Afghan case in 2001 and 2002.
    I would be pleased to take additional questions and answers 
on this. But I am going to conclude my remarks. Thank you.
    [The prepared statement of Dr. Jones can be found in the 
Appendix on page 38.]
    Mr. Smith. Thank you very much.
    Dr. Scheuer.

 STATEMENT OF DR. MICHAEL F. SCHEUER, SENIOR FELLOW, JAMESTOWN 
FOUNDATION, AUTHOR OF ``THROUGH OUR ENEMIES' EYES,'' ``IMPERIAL 
             HUBRIS'' AND ``MARCHING TOWARD HELL''

    Dr. Scheuer. Good morning, gentlemen. Mr. Chairman, thank 
you for asking me today. I will just briefly read my statement.
    There is no better way to summarize the current position of 
al Qa'ida and its allies than to quote the words President 
Lincoln wrote in 1864. ``Distrust the union's growing strength 
even after three years of increasingly bloody war with the 
confederacy.'' In his annual message to Congress of 6 December, 
1864, Mr. Lincoln, in words that Osama bin Laden could use 
today, told the Congress that ``The most important fact remains 
demonstrated, that we have more men now than we had when the 
war began, that we are not exhausted, nor in the process of 
exhaustion, that we are gaining strength and may, if need be, 
maintain this contest indefinitely.''
    As America enters the eighth autumn of the war, the reality 
of a vital and undefeated Islamist enemy is apparent, and the 
reason for this fact likewise lies in plain sight. The 
government of the United States continues to fight an Islamist 
terrorist enemy in al Qa'ida and its allies that does not exist 
in the form Washington portrays, is not motivated by the 
factors Washington ascribes to it, and it will not be defeated 
by the military forces and political tools Washington has 
deployed against it.
    Neither al Qa'ida nor its main allies, for example, are 
terrorist groups. They are insurgent organizations modeled on 
the Islamist groups that defeated the Red Army in Afghanistan 
in 1989. In comparison to their forbearers, al Qa'ida and its 
allies are larger, more sophisticated, better led and funded, 
more geographically dispersed, and more technologically 
proficient. All of these attributes make them radically 
different from any violent group that the United States 
Government has previously crammed into its definition of 
terrorist organizations.
    Perhaps the clearest but largely ignored sign that America 
is not confronting a terrorist group like the Japanese Red Army 
or geriatric Palestinian group like the Palestinian Front for 
the Liberation of Palestine-General Command (PFLP-GC), lies in 
the area of leadership succession. Since 2001, Americans have 
been able to flip on the radio almost any morning and learn 
that another al Qa'ida number two, number three or number four 
leader has been killed or captured in Afghanistan, Iraq or some 
other place. In addition, the CIA's tremendously successful 
rendition program has removed a sizable number of al Qa'ida 
leaders from the battlefield. And yet despite these successes, 
Admiral McConnell and General Hayden have accurately said that 
al Qa'ida is as lethal and cohesive as ever and pose as a clear 
and present danger to the continental United States.
    How can this be so? Well, there are several reasons. But a 
major one is that al Qa'ida is an insurgent group that because 
it always faces a far more powerful enemy puts enormous time 
and resources into succession planning. When a senior al Qa'ida 
leader is captured or killed, a trained understudy takes his 
place and the organization proceeds. The new leader may not be 
as good as his predecessor but neither is he green and he soon 
gets fully up to mark with on-the-job experience.
    No terrorist organization could have absorbed the 
punishment the United States has inflicted on al Qa'ida since 
1996 and survived. Indeed, this amount of punishment would have 
destroyed any organization the U.S. Government has accurately 
defined as a terrorist group.
    It is best to think of al Qa'ida as we often think of 
Lebanese Hezbollah and the Tamil Tigers. It and they are 
powerful insurgent groups which are able to absorb enormous 
punishment from nation-state militaries and continue to thrive 
and attack. And al Qa'ida is more powerful and dangerous than 
either. Because unlike Hezbollah and the Tamils, bin Laden's 
organization has no return address against which the United 
States can deliver a devastating blow. And if I may say 
parenthetically, recent statements from the State Department, 
the White House, and some congressional offices claiming that 
Hezbollah is more of a threat to America than al Qa'ida are 
inaccurate. Perhaps deliberately so. Such remarks are made by 
those who want to have a war with Iran, those who slavishly 
make Israel's agenda their own or those who have both 
attributes.
    Hezbollah is not an imminent threat to the United States 
unless Washington and/or Israel launch an attack on Iran. Then, 
however, it would pose a substantial domestic threat because 
our open borders have made it impossible for law enforcement 
agencies at any level of government to know the number and 
location of Hezbollah operatives in this country at any given 
time.
    To go on, long before 9/11 and certainly since, the U.S. 
Government under both parties has refused to accept that the 
main motivation of al Qa'ida and its allies and the main source 
of their appeal among Muslims is their perception that U.S. 
foreign policy is a deliberate attack on their faith and on its 
followers. From our enemies' perspective, therefore, this is 
preeminently a religious war, notwithstanding the blather to 
the contrary by Western politicians, academics, policymakers 
and pundits. And sadly for Americans, the Islamist leaders, 
Osama bin Laden, Ayman al-Zawahiri and the others have left 
U.S. officials with no excuse for failing to understand the 
Mujahideen's motivation. Not since General Giap and Ho Chi Minh 
has America had an enemy that has so fully, frankly and 
consistently explained his motivation for waging war against 
the United States. And yet the U.S. Government has been and is 
led by men and women from both parties who ignore the 
Islamists' words and in essence tell Americans to ignore what 
they say and listen only to us. It might well be suggested that 
for a group of powerful individuals who have been reliably 
unable to differentiate between Shias and Sunnis that this is a 
lot to ask Americans to accept on trust.
    What factors then are not among the main motivations of our 
Islamist enemies? First, poverty, illiteracy, unemployment and 
the lack of positive future prospects are not major drivers of 
Islamist violence against the United States and its allies. The 
resurrection of Harry Hopkins and Harold Ickes to conduct a 
contemporary and endlessly expensive new deal in the Islamic 
world would at best produced Mujahideen with better teeth and 
excellent postwar employment prospects.
    Hatred for America's liberties, freedoms, elections, women 
in the workplace and after work pitchers of Budweiser do not 
motivate our Islamist enemies. They would have none of these 
things in their country, but they likewise would be unable to 
attract fighters ready to die in a campaign to destroy 
Anheuser-Busch or to terminate the practice of early 
presidential primaries in Iowa.
    A universal desire to establish a worldwide caliphate 
governed by what many Republican and Democratic leaders, as 
well as the many U.S. citizens more interested in Israel's 
survival than America's, like to call Islamofascism also is not 
a main motivator of our Islamist enemies. The caliphate is 
indeed a goal of bin Laden and most Islamist leaders because 
God has said the world will eventually be entirely Muslim. But 
they know that its attainment will not occur in their or their 
great-great-grandson's lifetime, just as Christians know that a 
world in which all would love thy neighbor and turn the other 
cheek is light-years over the horizon.
    This said, it is correct to say that the world is rife with 
Islamofascists, but they are almost all the allies of the 
United States and ruling such countries as Egypt, Kuwait, the 
United Arab Emirates, Saudi Arabia and as we soon shall see in 
Iraq.
    To return to where we began, the main motivation of our 
Islamist enemies is U.S. foreign policy and its impact in the 
Muslim world. And the strongest such motivators are the 
following: U.S. and Western exploitation of Muslim energy 
resources, the U.S. and Western military and civilian presence 
on the Arabian Peninsula, unqualified U.S. support for Israel, 
U.S. support for other powers that oppress Muslims, especially 
China, India and Russia, the U.S. military presence in 
Afghanistan, Iraq, and other Muslim countries, and U.S. support 
for the police states that govern much of the Arab and Islamic 
world.
    Because Washington applies an inappropriate definition to 
America's Islamist enemies, terrorists versus insurgents, and 
deliberately misrepresents their motivation, freedom-haters 
vice policy-haters, it is not surprising that the military and 
political tools with which Washington is waging war are 
failing.
    In the starkest terms, U.S. policymakers mistakenly believe 
that the war they are fighting is something of a super law 
enforcement struggle in which, as we have heard from all 
Presidents over two decades, America will prevail by bringing 
our enemies to justice one man at a time. This is both lunacy 
and self-defeating. There are far too many of the enemy, and 
their numbers are growing, to capture or kill one at a time.
    As effective as U.S. Special Forces operations and the 
CIA's rendition program have been and will be, neither is a war 
winner. Both entities are being worn out by overuse, both are 
being weakened to steady losses to higher paying and less 
dangerous jobs in private sector companies and neither can kill 
the enemy at anything approaching adequate numbers.
    Which leads us to what probably is the U.S. Government's 
number one military problem: A steady stubborn refusal to 
accept that war has not changed since Alexander and Caesar and 
that it will not change; that the surest route to victory lies 
in quickly and efficiently killing enough enemy fighters and 
their supporters and destroying enough of the infrastructure of 
both to make them see that the wages of attacking America 
approach annihilation; and that U.S. Armed Forces are enlisted, 
trained and armed to kill America's enemies and to secure our 
country, not to bring democracy to foreigners who do not want 
it, secularism to people who believe it is the road to hell, 
and protection to both sides in an Arab-Israeli religious war 
where the United States has no genuine interest at stake.
    To define at this time the way ahead for the structure and 
composition of U.S. forces in our current war against al Qa'ida 
and its allies, therefore, is a very hard, if not nearly 
impossible, task. But because Washington is fighting an enemy 
whose motivation it willfully ignores, whose numbers it grossly 
underestimates and whose ability to defeat or evade the tools 
of war it has chosen to half-heartedly use, we should not be 
too quick to decide that the current mix of U.S. forces is 
inappropriate. We clearly are going to need conventional, 
nuclear and Special Forces for this foreseeable future. China, 
Russia and other nation states still potentially threaten the 
United States in scenarios that would require large U.S. 
conventional and nuclear capabilities for purposes of 
deterrence or actual warfare.
    In addition, our dependence on foreign oil suppliers means 
that there are places in the world, such as Saudi Arabia's 
eastern province or the Gulf of Guinea-Niger Delta region, 
where interventions requiring the use of large conventional 
forces could quickly and unexpectedly arise. At this point in 
our history, it would be most unwise not to maintain the bulk 
of the U.S. military in conventional form.
    We should also learn from the military experiences of the 
Clinton and Bush Administrations. These have proven that 
Special Forces operations and CIA covert action programs cannot 
win wars, conventional or irregular. Those entities remain 
today what they historically have been, powerful and 
indispensable adjuncts to overall U.S. war-making capabilities.
    As noted, the Clinton and Bush Administrations have ignored 
history and are wearing out both the Special Forces and the CIA 
in wars in which America is barely holding its own. In 
Afghanistan and, as General Petraeus and General Odierno 
reminded us this week in Iraq, a move to expand the size and 
use of Special Forces and the CIA special covert action forces 
will simply give us more excellently trained, extraordinarily 
capable and wonderfully lethal units that still will be unable 
to win wars for America.
    The wars in America's future will require conventional 
forces, Special Forces, and a strong and covert action-capable 
CIA. The appropriate precise and affordable mix of those forces 
is beyond my skill and knowledge base to determine. There does, 
however, seem to be an increasing danger that too many 
resources will be put into building forces designed to fight 
irregular wars which are conflicts where even successful 
Special Forces and CIA operations have already proven 
insufficient to deliver a definitive victory, which of course 
must be the sole goal America pursues when it goes to war.
    This is in no way meant to denigrate the men and women who 
lead and staff those forces. It is simply to say that despite 
their courageous and frequently successful efforts, al Qa'ida 
is fully meeting the constituent goals of its strategy for 
driving the United States as far as possible out of the Muslim 
world. Those are to help lead the United States to bankruptcy, 
to force the spread of U.S. military and intelligence forces to 
the point where they lack flexibility and reserves, and to 
cause a deterioration in domestic political cohesion, as did 
the North Vietnamese.
    And no matter what the mix of U.S. military and 
intelligence forces is ultimately decided upon, their ability 
to bring victory will depend on U.S. politicians mustering the 
moral courage to tell Americans that their Armed Forces are 
built for the annihilating America's enemies. The very fact 
that we are meeting here today on the eve of the eighth autumn 
of this war is largely the result of the lack of political will 
in both parties to unleash the historically unprecedented 
military power American taxpayers have sacrificed to pay for 
over many decades.
    Finally, it is worth considering whether it might be 
smarter, cheaper and less bloody to change the failed foreign 
policies that have brought war with al Qa'ida and its Islamist 
enemies. Rather than maintaining those war-motivating policies 
as divine writ and building an ever-larger military to fight 
the ever-expanding wars that writ produces, energy self-
sufficiency, a fixed and even obdurate determination to stay 
out of other people's religious wars and a much more narrowly 
defined set of genuine U.S. national interests would require 
far less frequent resort to war and would be much more 
consonant with the timelessly wise foreign policy goals of our 
country's Founding Fathers.
    [The prepared statement of Dr. Scheuer can be found in the 
Appendix on page 56.]
    Mr. Smith. Thank you very much.
    Dr. Arquilla.

   STATEMENT OF DR. JOHN ARQUILLA, PROFESSOR, DEPARTMENT OF 
DEFENSE ANALYSIS, NAVAL POSTGRADUATE SCHOOL, AUTHOR OF ``WORST 
 ENEMY: THE RELUCTANT TRANSFORMATION OF THE AMERICAN MILITARY''

    Dr. Arquilla. Thank you, Mr. Chairman, committee members. I 
am grateful for your invitation to be with you today, and I am 
honored to serve on this panel with these two remarkable 
scholars whose work proves once again that writing is 
fundamentally an act of courage.
    I am going to try to convince you in a few moments here to 
take networks seriously. I think that is one of the words we 
have used a lot since 9/11, and I don't think we have acted 
enough on our understanding of the rise of networks. In fact, I 
would put it this way: The war we are in now is the first great 
armed conflict between nations and networks. And the 
fundamental dynamic of our time, unlike the Cold War where it 
was an arms race, the fundamental dynamic is now an 
organizational race to build networks.
    We haven't defeated our enemy because they have continued 
to build their networks. They have made them looser, more 
distributed, more cleverly designed. We, in turn, have at the 
organizational level been creating great new institutions. The 
Department of Homeland Security, the Office of the Director of 
National Intelligence would be two examples of organizational 
change on our part. I would say we are behind in the 
organizational race. There are some important points that I 
will get to in a few moments that we have shown an interest in 
organizational redesign, but not very often. I think Mr. Smith 
has already pointed out some of the Special Operations and 
intelligence assets that are bringing together people.
    The classic network concept is small pieces loosely joined. 
Lots and lots of little units of action, not a lot of central 
control, and a great deal of coordination. That is why we are 
having such a hard time against the terrorists. It is their 
form of organization. I am here to suggest that we get in that 
organizational race.
    If there were any other reason to consider this seriously, 
I think all of them would pale next to the simple fact that our 
war on terror has become terror's war on us over the past seven 
years. How many acts of significant terror were there in 2007, 
in 2006? According to our own State Department statistics, in 
excess of 10,000. How many were there in 2001, even counting 
the events of September until the end of the year? A few 
hundred. And any way you slice this, there has been a 
staggering increase. And the curious irony of course is that 
most of the acts of terror in the world are in the places where 
we have deployed most of our Armed Forces, which suggests also 
that maybe we need to be thinking about getting into the 
organizational race as a military as well. Maybe we could be 
using these forces differently.
    And so my few remarks here, I am going to suggest to you 
that the networks have proven their ability to stay on their 
feet, to absorb our heavy and traditional blows. And I think 
the problem here is actually something Mr. Smith raised 
earlier. We are actually taking an indirect approach in this 
war, not in terms of the tactics. Tactics can be indirect, 
working with Green Berets or direct with columns or tanks. But 
they can be strategically indirect. We have tried to go after 
networks by attacking other nations. That means the networks 
get to slip our punches. We can invade in Iraq or another 
member of an axis of evil, and that won't even muss the hair of 
the networks.
    So in that respect I would suggest we need to move back to 
more direct means; that is, go straight after the network. How 
would you do this? How would you do this with an American 
military whose fundamental problem is one of scaling? We are a 
military of a few large units. We have a few divisions. A 
handful of brigades. And even with the changes made today to 
the brigade combat team or the brigade unit of action, we are 
talking about going in the last 7 years from about 33 of these 
7 years ago to around 50 today to maybe 100 in the next few 
years.
    What is the real power of a network? It is the small pieces 
loosely joined. Look what 19 attackers did on 9/11. And later 
that same autumn, that first autumn of war that Mike speaks of, 
just 11 Special Forces, A-teams drove the Taliban and al Qa'ida 
out of power. Two thousand and one was a remarkable year for 
networks. Our enemy has taken lessons from that. I think we run 
the risk of forgetting even our recent history, much less our 
earlier history.
    And so I am going to suggest that there is a pressing need 
for us to take networks seriously, particularly in the areas of 
organization and doctrine. How would you move the military we 
have away from the few and the large to the many and the small? 
The simple way would be to take the brigade word out. Just 
combat teams, units of action. Don't put ``brigade'' in front 
of it. We are fundamentally brigadist in future, and that 
guarantees that we are always going to have small numbers of 
units of action.
    What are we doing in Iraq, where I do think it has been 
recognized things are indeed much better than they were? That 
is fundamentally a network story. We created lots of small 
pieces loosely joined in these more than 100 outposts in the 
country. And how many are there? Is it a brigade? No. It is 
usually a platoon, about 40 to 50 soldiers. And they make the 
Iraqis they are with fight a lot better, and they make the 
people living nearby more willing to provide intelligence. This 
is the way ahead. The outpost.
    And also the other part of networking is social, the 
outreach. All 23 tribes in Anbar Province signed up to work 
with us when this offered was made. And what this says of 
course is that war is not just a numbers game. We didn't need 
five additional brigades to do that. Even today with all these 
outposts and all this outreach going on, only five percent of 
the troops in country are in those outposts. We always had 
plenty enough to do this.
    And this is true in Afghanistan as well, by the way, where 
I think things went off the rails when we became more 
centralized. Why, for example is, is there a Burger King in 
Bagram? I want to know that. I just had a nephew come back from 
there. He is a Marine colonel at Central Command (CENTCOM), a 
strategic planner for Afghanistan. He said, there is a lot of 
kit in Bagram. I said, well, how about the Seventh Special 
Forces group with which I work? And he said, where are they? Do 
you mean the Seventh Marines? I said no. See, that is the 
organizational problem, small pieces loosely joined. We have an 
organizational problem in Afghanistan where the conventional 
forces don't even talk with the Special Forces, much less the 
North Atlantic Treaty Organization (NATO) forces, overlapping, 
interlocking, all the words you associate with traditional 
bureaucratic gridlock. It is out in the field.
    Okay. So my story is, if you take networks seriously, you 
are going to reorganize. You are going to use tactics that are 
more similar to the opponent's. That is, you are going to 
strike here, there, everywhere from every direction by 
surprise, yes. We can still engage in surprise attacks if we 
operate in this fashion. And the hunter networks that I began 
to lobby for--I guess ``lobby'' is not the right word to use 
here--that I began to advocate four years ago. I guess Bob 
Woodward has said publicly----
    Mr. Smith. I think, Dr. Arquilla, I think actually 
``lobby'' and ``advocate'' kind of mean the same thing. It is 
just that ``lobby'' has a bad connotation, but ``lobby'' is 
okay.
    Dr. Arquilla. Thank you, sir. I feel better.
    Four years ago I said we need to build these small teams 
and set them loose. And actually I am meeting with some of 
those team members a little later today and I am so proud of 
what they have done. They show we can wage network warfare. We 
can have these small pieces loosely joined. And they can win.
    And I think the lesson for this time, this Information Age 
is the opposite one of the lesson for military affairs from the 
Industrial Age. In the age of mass production, you wanted big, 
big units. You wanted lots of numbers, you were going to have a 
lot of attrition. So you needed to have things replaced and 
keep a steady flow. You wanted the liberty ship to come off the 
flow, off the waves every 36 hours. In the Information Age, it 
is all about connectivity. That is where the power comes from.
    So I would move our military to a much more networked 
structure, have this doctrine of the hunter networks that are 
out there doing so much good. And what is the big objection to 
it that I face when I take the Metro a few stops the other way? 
The big objection is, well, wait a minute, there might be 
another World War II come along. Maybe it will be World War 
III. And this fear of the return of conventional war I think is 
the central obstruction to the way ahead here.
    And all I will say is I think there are two ways of dealing 
with this problem that make sense. There is one that doesn't, 
which is just to grow the Special Forces. I think that is a bad 
idea because it will have quality assurance problems for the 
Special Forces, and it will drain off good troops from the rest 
of the military. You need to think about the military elite as 
a laboratory for the whole Armed Forces. That is, they are 
doing something that is very cutting edge. We don't want 
everybody to be Special Forces, but we want people increasingly 
to be able to do special things. And that is what is going on 
in Iraq. It is what can go on in Afghanistan. It can be done 
without putting more masses, more numbers in play.
    So how do you deal with the World War II threat? Two 
sensible ways. One is rebalancing, if I can--is that a word? If 
it is not, I will make it up. How would you rebalance this 
force? Right now most of the active force is full of people who 
do conventional things, tanks, artillery, et cetera. The 
reserves on the other hand are full of lots of people who have 
the irregular sorts of skills needed in counterinsurgency and 
counterterrorism, including a lot of special operations, 
psychological operations specialists, civil affairs folks. At 
one time in Iraq, about half our troops were reservists. Let's 
move the people with their specialties into a smaller active 
force and move the traditional fighters into a reserve where, 
by the way, we are going to save all sorts of money doing that, 
and we will make ourselves more able to fight the wars that are 
actually out there.
    There are over two dozen wars going on in the world today. 
How many of them are conventional wars? None. Except when we do 
conventional things. So we would be prepared with rebalancing 
if World War II ever came back.
    The second solution is this: Bet that the network will make 
mincemeat of a traditional massed force. The million man North 
Korean Army. I would much rather have 100 small units of action 
backed by American air power taking them down, channelizing 
their movements in the mountain passes and destroying them 
rather than having a repeat of the Korean War fought 57, 58 
years ago, which is a bloody stalemate. I don't think you need 
to respond to a conventional threat in a conventional way; that 
is, if you take networks seriously.
    I want to beg your indulgence for just one little moment 
here to read from something about our forces 250 years ago just 
to prove that we can do military transformation. We began that 
great struggle against the French empire in North America, 
losing a lot of conventional battles. By the end of the war, 
the British hierarchy was convinced, you know, these bush 
fighters have something going for them. We need to do irregular 
things. And so they marched to Montreal in the last campaigns, 
the year after the fall of Quebec.
    Fred Anderson writes in the Crucible of War: ``This was no 
conventional army. Its tactics had undergone a transformation 
in America. For three years the redcoats had been firing at 
marks and were now accustomed to aiming rather than merely 
leveling their muskets at the enemy. Forces included fewer 
grenadiers, many more light infantry, whole battalions of 
little wiry men able to move quickly through the woods and 
ranger companies to make the raids and reconnaissance 
patrols.''
    Now we need the little wiry men and women who will traverse 
the world and tear apart these terror networks node by node, 
cell by cell.
    Thank you.
    [The prepared statement of Dr. Arquilla can be found in the 
Appendix on page 61.]
    Mr. Smith. Thank you very much. I really appreciate that 
testimony. Very interesting. Not all in agreement, which makes 
for an interesting discussion. We are going to stick to the 
five-minute rule on questions. I will start. And even as I 
announce that rule, it is going to be difficult to get the 
question out and much less the answer.
    But Dr. Scheuer, I was interested in your comments. At 
first blush, I didn't agree with a fair number of them. But I 
know you know far more about this than I do. So I wanted to 
explore some of those aspects of it.
    First, as far as the conventional aspect of the warfare, 
you seem to be arguing that the enemy is out there. We know 
what they want. They basically think that we are waging war on 
Islam and they are fighting back. So we need basically to go 
out, find them and kill them. And it is going to take a 
conventional structure to do that. I guess a couple things that 
I am puzzled about in that analysis is, number one, al Qa'ida 
and the various groups who were affiliated with them don't mass 
in a conventional way. Where do we go in the world to have a 
conventional war with al Qa'ida? They seem to fit a model more 
closely to my mind with what Dr. Arquilla is saying. So I don't 
see where we send a couple of brigades to go up against them. 
It doesn't seem to work that way. It does seem like much more 
of an irregular battle.
    And as far as our foreign policy is concerned, as you 
mentioned, they have both political and religious goals. I 
think, you know, it is not just that they think we are waging a 
war on Islam. They want to establish a specific type of 
government and society. And they think we are getting in the 
way of them establishing that. And the specific type of state 
society that they are establishing I think is a profound threat 
to us in and of itself. The Taliban-style government. I don't 
think we can simply pull back and say, as long as they are not 
messing with us and simply forming these states it is okay. It 
is not.
    And I guess the last question is, on ideology, as you 
mentioned, you know, we killed the two, three, and four. And I 
totally agree with what you said on them not being a terrorist 
network, that they are an insurgent group. But it seems to me 
that we do have to focus a little bit on what makes people 
follow this ideology. Certainly there are the hard core, the 
hard core. They are there. They have developed it, but why are 
they finding suicide bombers? Why are they able to just go 
through northwest Pakistan? And I read an article, basically 
they got people who have got no prospects, no hopes and say 
hey, strap this on. We will take care of your family. You will 
go to heaven.
    It seems to me that defeating the ideology does require 
some of this more, if you will, muddle-headed thinking about 
poverty and ideology and why do they follow them. That is three 
areas. I took half the time. We will hopefully come back to it. 
I want to make sure I give you time to touch on those three 
questions.
    Dr. Scheuer. Conventional forces certainly can't be used in 
every occasion. But we unnecessarily were not prepared for 9/
11, were unable to move any amount of forces that would make 
any difference to Afghanistan in time to keep the enemy from 
going to Iran, going to Pakistan, going further into the Gulf. 
You have to use the military forces you have when you have 
them. The absurdity of sending a few hundred Special Forces and 
a few hundred CIA officers to conquer and hold someplace that 
is bigger than Texas is a piece of madness.
    Mr. Smith. But that wasn't because we didn't have the 
conventional forces. It was because we couldn't move them fast 
enough.
    Dr. Scheuer. Sir?
    Mr. Smith. It wasn't because we didn't have the 
conventional forces. It was because we couldn't move them fast 
enough.
    Dr. Scheuer. It was because the Pentagon had failed 
immeasurably in not preparing for a war that had been declared 
on us in 1996 and repeated again in 1998. But that does not in 
itself prove that conventional force won't be of tremendous 
use. We seem tremendously border challenged. The only way to 
control Afghanistan and build the democracy that people think 
can be built there is to close the border with Pakistan. It is 
the only way to do it. And you are not going to do that with 
Special Forces and CIA people.
    What we are talking about here is this return to law 
enforcement, Special Forces and CIA, which is exactly what we 
did under the Clinton Administration. And by 1997 it was very 
clear that that combination of forces could not cope with what 
al Qa'ida was producing.
    On the point of ideology, sir, the way to gut the ideology 
of the enemy is to disengage from the Middle East as far as we 
can and let them kill each other, because that is where the 
problem is, within Islamic civilization and not against us. It 
sort of hurts our ego to realize that we are not the main enemy 
here. We are the people that are in the way of letting the 
enemy get at his main enemy, the Saudis, the Mubaraks, the 
Israelis.
    Mr. Smith. I don't think that is an ego issue. I think that 
is a legitimate concern about, you know, how do we interact--
forget the oil for the moment. If you have a Taliban-style 
state, as you do to some degree in Iran, in Saudi Arabia, in 
Jordan, in Iraq, if basically the Middle East is taken over by 
that, then I think the concern is, number one, they won't be 
satisfied with that. And I think there is every reason to 
believe that is the case. If you read what they write.
    Dr. Scheuer. Well, that basically, sir, is a racist kind of 
an approach to things. Because to assume that they are going to 
become a caliphate of 1.4 billion Muslim automatons is to just 
simply ignore the fact that Islamic culture is as fractured, as 
diverse as we are.
    Mr. Smith. But I don't think al Qa'ida represents Islamic 
culture. But I am talking about if they actually controlled 
those governments.
    Dr. Scheuer. Well, first of all, sir, Afghanistan was much 
more stable under the Taliban. And the second point I would 
make is who cares what happens in Afghanistan once we take care 
of the terrorist problem? And you say, move the question away 
from oil. And the fact is, we can't. We have no possibility to 
change or have options in the Middle East as long as we are 
dependent on oil. We are going to be continuing to support the 
Saudi tyranny.
    Mr. Smith. On that point, I agree with you completely and 
certainly the policy needs to change.
    Dr. Scheuer. And regarding Iran, sir, Iran of course is 
more democratic and more participatory in any sense than any of 
our allies are in the Middle East. So the common wisdom is 
sometimes not quite cogent.
    Mr. Smith. I see the ideology that Iran houses, or Iran 
has, is more of a threat broadly than that, just personally. 
But I will yield to Mr. Thornberry, and I will try to come back 
when we are done.
    Mr. Thornberry. Thank you, Mr. Chairman. Dr. Jones, I was 
interested in a lot of things in your study. One of the 
factors--one of the things that you found which I don't recall 
being in your written testimony was that after studying 648 
groups, there are 244 of them still going and another 136 that 
splintered and are still conducting terrorism. So if you take 
the whole universe of the terrorist groups you studied, 59 
percent are still terrorists. And so then what you narrow down 
to is the roughly 40 percent that have gone away. Why did they 
go away? And that is where you get the policing and 
intelligence and other factors. Have I got that about right?
    Dr. Jones. That is correct, yes.
    Mr. Thornberry. So maybe I might read that and think, well, 
the terrorist groups that went away maybe were the easiest to 
get rid of. The tougher ones are in the 60 percent that are 
still conducting terrorist operations.
    Dr. Jones. Well, that would I think be incorrect in one 
sense because we did actually look separately at all the groups 
together. And actually we found in most cases when groups 
continued to exist it was the wrong strategy that was used. So 
with some of the smaller groups we found that have continued to 
exist, they have often been targeted by large military forces. 
We found in general groups that continue to exist, in looking 
at why they continue to exist, there are a range of factors. 
One of the biggest actually is wrong strategy.
    Mr. Thornberry. You said--I acknowledged I think in your 
testimony--that a political settlement with al Qa'ida is not 
happening. Policing troubles me when I think about al Qa'ida 
Central in the Federally Administered Tribal Areas (FATA), 
which is essentially ungoverned by any country, including 
Pakistan. Would you agree that the policing and intelligence is 
something you know that takes some time, particularly when you 
are in a tribal setting? It is a particularly difficult area 
with which to use these factors that you identified as the most 
successful.
    Dr. Jones. I would say after--I have spent three different 
periods in 2008 on the border, on the Afghan-Pakistani border 
with U.S. forces. I would say the biggest problem is not the 
capacity of local police and intelligence forces on the ground 
on the Pakistani side because there have been efforts to build 
up the--through coalition support funds, for example, Frontier 
Corps, which is the paramilitary force on the ground. The 
biggest challenge of this strategy in general is the will of 
these agencies because they view al Qa'ida and many of the 
militant groups--their objectives are very different from ours.
    So I think the problem we find is not that there are 
insufficient groups on the ground, intelligence and police 
forces, like the Frontier Corps and Pakistan's Inter-Services 
Intelligence (ISI). The problem ends up being they may not want 
in some cases to target many of the groups we do, including the 
Taliban. I think that is actually the bigger challenge.
    Mr. Thornberry. Sure. The groups on the ground are 
sympathetic to them, yeah, which is why they are there.
    Dr. Arquilla, let me--number one, thanks to you, I have 
taken networks seriously for some time, and I appreciate your 
work in that area. But one statement that you make troubles me 
a little bit. You talk about the problematic notion of waging a 
war of ideas. Dr. Jones talks about counterterrorism as much 
about hearts and minds as it is about policing and 
intelligence. It seems to me you are saying that this war of 
ideas stuff doesn't really matter. He has a different view. Can 
you explain your opinion and then maybe he will have a chance 
to briefly answer?
    Dr. Arquilla. Thanks. That is a good question. I think the 
context of my use of this is that instead of a war of ideas 
about Islam, we need to have a war of ideas about the idea of 
war. And I have got at least one of you to take networks 
seriously, that war is underway.
    My concern is this about the so-called war of ideas. War is 
a very bad metaphor in the ideological area. You want to 
convince people, you want to persuade. War conjures up notions 
of coercion or the hard sell. We had someone at public 
diplomacy who was trying to sell democracy the same way that 
you would sell dog food, which I guess is what she did at some 
point in her career. And I think the war of ideas is 
problematic in terms of trying to deal with zealots and at 
least as I see statistics, about five percent of the Muslim 
world takes the al Qa'ida message pretty seriously. Those folks 
you are not going to get at with a hearts and minds campaign. 
You are going to get at them with a hunter network.
    But I think there is another problem with our war of ideas. 
We want to support democracy and yet as Dr. Scheuer has noted, 
we support all kinds of authoritarianism very comfortably in 
the Muslim world. So consistency is a very, very big problem 
for us.
    Another problem with strategic communications is the whole 
idea that your actions communicate, not just what you say, and 
Guantanamo and Abu Ghraib and again the support for 
authoritarian regimes, those are actions that the enemy reads 
very closely and the general public reads very closely.
    Finally, on this point, taking it away from the war 
metaphor to something more communicative in nature, listening 
is a huge part of communications, and I fear that we have done 
far too little of this, and I know that you have had a long 
interest in David Ronfeldt's and my work in this area of 
information strategy. And so respectfully I suggest that the 
war metaphor--I do believe that the war against al Qa'ida is a 
real war. They believe it. We had better believe it. I am also 
worried that the notion of a long war is--that is the wrong 
war. If we let them stand on their feet long enough, they will 
get weapons of mass destruction. So let's build networks, hunt 
them down.
    Many of the things Dr. Jones suggests can work, probably 
would with some elements. That is the other thing. People say, 
well, you can't negotiate with networks. Sure you can. They 
have all kinds of small pieces loosely joined. You can use 
salami tactics against them. But please, in this ideological 
area let's stop talking about a war against these folks. Let's 
have a discussion, a debate. Let's be consistent. Let's conform 
our actions to our beliefs and our declaratory statements. And 
above all, let's listen because sometimes there is a guide to 
good policy change in what others are saying.
    Mr. Smith. Thank you.
    Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman. And thank you, 
gentlemen, for being here. It is a fascinating hearing. You 
have probably--I assume you have all watched this body over the 
last couple of years, the votes we have taken fund goals to get 
out of Iraq, Afghanistan. I would be curious. If you switched 
chairs with us, where would you go from here? What would you--
as briefly as you can sum it up, all three of you, your 
recommendations to the Congress on how--if you were the 
decider, and I hate to use that term, how would you forge 
forward with our conflicts in Iraq and Afghanistan? Dr. 
Arquilla, if you want to start, we will go the other way.
    Dr. Arquilla. I would be happy to. There is a third way in 
Iraq, if one can still use terms like a third way. Don't just 
leave. Don't do what we have just done, which is basically stay 
the course. Right, 8,000 troops out is not the answer.
    If I am on your side of the table, what I say is, is you 
can make dramatic reductions. As I said, only a tiny proportion 
of the forces in country are actually in those outposts. That 
is what made things work overnight. Another colleague of mine, 
a Marine major in the audience here, was telling me about his 
two tours in Iraq. First time in 2006, helicopter pilot 
evacuating the wounded. People with their legs blown off every 
day. Second time through after the Awakening started, the 
outpost and outreach, he was bringing in German businessmen 
with briefcases to meet with sheikhs. So an overnight change. 
That is not the result of five more brigades. It is a result of 
the Awakening. You don't need war as a numbers game.
    It is true in Iraq and it is true in Afghanistan. Build 
more outposts, do more outreach. Play offense, too. Not just 
the defensive laydown of the outposts and working with the 
local forces who are a lot better with even small groups of our 
forces. Build more of these hunter networks that are out there. 
They are making a huge, huge difference in Iraq, around the 
world. And despite all the news you hear from Afghanistan, I am 
a little closer to this. We are doing some very remarkable 
things, particularly in the western part of Afghanistan.
    So that is my idea. Draw down, but I wouldn't--you know 
there is a red and blue story here. To get the red side of the 
house to buy into this, I think what you have to acknowledge is 
that you don't simply announce a date when you leave. The enemy 
will declare victory. If there is one terrorist left, he will 
hold up his AK-47 and say, we won. That is strategic 
communications. So keep some forces there for an indefinite 
period with no timeline. That is the political compromise.
    I don't know why you all don't see it as a perfect storm. 
We all want troops out as much as we all can possibly have them 
out. But we don't want chaos in the wake of our departure. So 
let's not leave. Let's not take everybody out. Let's keep some 
force, and I think the network gives us that possibility.
    Mr. Ellsworth. Dr. Scheuer, would you like to----
    Dr. Scheuer. I am kind of a bear of simple brain or bear of 
small brain. I think the truth is the place to start if you 
wanted to do anything. And the truth is that, with respect, our 
political leaders have been less than frank with the American 
people for 20 or more years. If this war was about our freedoms 
and our democracies and women in the workplace and all those 
things, this would be a minor nuisance. Lethal nuisance but a 
minor one. This is about exactly what we do in the Muslim 
world. And none of that said means that what we do is wrong. It 
is simply standing back and saying, what is motivating, what is 
going on? Even someone who is I think as misleading as John 
Esposito on the nature and threat from jihad has published, I 
think, a very useful book that shows in the Muslim community 
around the world maybe 5 percent would pick up guns in support 
of al Qa'ida, but 80 percent of the Muslim world, Arab and the 
rest, believe that our foreign policy is an attack on Islam. 
And with that kind of support base, we are not in for a long 
war. We are in for an eternal war.
    And so I think that what I would try to do is just simply 
lay out for the American people, you know, here is the cause. 
If we want to maintain those policies, that is fine, that is 
our prerogative. But at least if there was a discussion, sir, 
we would be on the same page. Right now we have stuffed a very 
busy, very worried electorate with nonsense. They say, oh, they 
hate the fact my daughter goes to university. She is going to 
go. We are going to fight. That is not the way to proceed in 
this war.
    Mr. Ellsworth. Thank you very much. Do we have time, Mr. 
Chairman, for----
    Mr. Smith. Sorry. Dr. Jones has 15 seconds. But I will give 
him a little more. Go ahead.
    Dr. Jones. I will try to be really brief. One needs to ask 
the question, what has been effective so far? There have been 
pockets of effectiveness. I think the answer, going back to my 
testimony, is what has been most effective I think is the 
leveraging of local forces on the ground. This discussion 
sometimes--we have done it already in this testimony--of small 
numbers of U.S. forces or large numbers of U.S. forces, there 
is a second part of the equation which is a local element on 
the ground which is fundamental. I would say we learned 
successfully in the 2001 period which force took Kabul on the 
ground with local Northern Alliance forces, which forces on the 
ground took Anbar? It was local Sunni forces. I think the steps 
forward are to increasingly ask questions like, with the 
brigade and battalion going into Afghanistan, are they going to 
be doing direct operations or embedding and partnering with 
local forces on the ground? This is a fundamental question.
    Mr. Smith. Thank you.
    Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    I have a question for Dr. Jones and Dr. Arquilla. And, 
actually, Dr. Jones's last answer is a great segue into this 
question.
    As we have heard today, to change the military is a tough 
job. There have been some changes made on the fringe. Dr. 
Arquilla may be able to remind me of the fellow's name who 
wrote the book, ``Transition Under Fire.'' I can't remember his 
name. It was a retired colonel. And he was basically talking 
about the brigade combat team change, which has been effected 
to a large degree, but that was like pulling teeth to get that 
done. And we haven't, obviously, gone far enough.
    So based on what you have seen, Dr. Jones and Dr. Arquilla, 
of the changes that we have made to date and what you think the 
future looks like in terms of changes that we need to make, how 
would we go forward on a step-by-step basis to create a more 
effective counterinsurgency organization?
    Dr. Jones. I think, quite simply, probably the best 
illustration is to look at the Marine operations in Fallujah in 
2004 and Marine operations in Anbar province in 2006, 2007, and 
2008. The issue is some of the training--which, in my view, was 
not sufficient enough--training that went into incoming Marine 
forces into Iraq to think and work with local actors was 
fundamental in the shift in approach from direct combat 
operations in Fallujah against an enemy, to embedding and 
working with local forces in Anbar in the 2006, 2007, and 2008 
period.
    So I would say what becomes fundamental is during the 
training process, the education process, including in places 
like Carlisle, how much of the training and education is going 
into understanding working with local actors on the ground. 
There is a mindset that is fundamentally different. The mindset 
of a counterinsurgency operation is different from combat.
    So when units prepare to deploy to places like Afghanistan, 
when Marine units or Army units, 82nd Airborne, 101st Airborne, 
how much are they being trained to go into an unconventional 
environment and to work and embed with locals? I think we have 
gone in some direction, in this sense, but clearly not enough.
    Dr. Arquilla. The U.S. military has a long relationship 
with irregular warfare. I mentioned the French and Indian War. 
We won the Revolution because of an ability to engage in 
insurgent operations that exhausted the British. We fought 
Native Americans for most of the 19th century, a lot of 
irregular warfare, a lot of lessons there. The best soldiers in 
the Civil War were irregulars.
    Then we became a great industrial power, and all this 
irregular capacity began to fall into the background. We had a 
little harder time in the Philippines. We had a hard time, 
scratching our heads as to what to do in a number of Central 
American interventions, in Haiti as well. And by the time 
Vietnam came along, we decided to try to solve the problem 
with, quote, ``big units'' rather than the small special 
approach that we used that had been working.
    This is a long debate in the U.S. military. It is an 
important debate. Militaries are--my book has ``reluctant 
transformation'' in there because they are reluctant to change. 
They have to be. They fight for the highest stakes: their own 
lives, their country's honor, and maybe it is survival and the 
quality of the life in the world system. So I respect this 
reluctance.
    But I do think we need to have this war of ideas about the 
idea of war. We live in a time in which all the wars are 
irregular. If you look back 60 years, you will find that 
conventional wars are less than one in 20 of all the wars that 
are fought. We have to have a capacity for this.
    I would suggest we reach back to our own traditions, light 
interesting units, the wiry little men traversing the 
wildernesses of the world. That is something we have done 
before, we can do again. The bonus here is I think creating 
this new, this nimble, this networked force is also going to 
allow us to wage the rare conventional war in an entirely new 
manner that takes, truly, the military profession into an 
information age. That is where we are on the cusp.
    So I think the beginning is what we are seeing with these 
small units, these outposts, these task forces, these hunter 
networks. It is starting. And I think if we had a hearing on 
this a few years from now, we would see that the progress is 
even farther down the road. So I, sir, am something of an 
optimistic on this subject.
    Mr. Saxton. Dr. Arquilla, you said I think in your 
testimony, and I may not have these words exactly right, you 
said in your testimony that we don't need to grow the Special 
Forces, but we need more special----
    Dr. Arquilla. Everyone has to do more special things.
    And the Special Forces are a laboratory. They have shown 
that there are things you can do. Most of the hunter networks 
come out of the Special Forces. But the best guy I know who was 
in Samara in Iraq, who worked with the locals, had a small 
unit, a company under his command and pacified an entire area, 
reached out--I don't think I can say this without being 
detained--but he reached out to some of the insurgent elements, 
got them working with him. This is a tank officer with a degree 
in animal husbandry from Texas A&M.
    I work with these officers every day and have for a couple 
decades now. They have the capacity to do this.
    So I repeat, sir: I am an optimist. I want to see the whole 
force able to do special things, not just try to wall irregular 
warfare off into something that represents only three or four 
percent of the total force.
    Thank you, sir.
    Mr. Smith. Thank you.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    And thanks for each of the witnesses for your remarkable 
expertise. I find discussions like this very helpful. I wish it 
could be in a little more informal setting, perhaps around a 
seminar table instead of this hierarchical approach.
    Each of you has very interesting advice, but each of you 
has now formally left government structure. So my main 
question, I know Mr. Scheuer has had, particularly, 
difficulties with his prior agencies. I loved it when 
``Imperial Hubris'' came out and you were anonymous. But I am 
interested in the ability of a government bureaucracy to 
accommodate free-thinkers.
    It seems to me that the number-one rule of war is to 
understand the nature of the enemy, and yet that has been a 
remarkably difficult and controversial role for some of our 
previous government workers, without handicapping your career, 
in some cases forcing you to leave government.
    So if you would care to comment on that, I would appreciate 
it.
    Dr. Scheuer. Yes, sir. In my experience, at least at CIA, 
it was a tremendously lively, intellectual place. And being 
able to express your views was always one of the things that I 
enjoyed about being there. I think the real problem is getting 
the views above, say, the level of what would be a lieutenant 
colonel or a colonel in the military.
    I don't think there is a lack of brain power in the agency. 
It is more or less an unwillingness to carry bad news to the 
policymaker. And of course it just so happens that in the 
Middle East there are so many sacrosanct things in the United 
States Government that even facts are unacceptable, in some 
ways. In my experience under both Administrations, Democrat and 
Republican, the White House does not want to hear anything 
negative about the Saudis or the Israelis. And so two major 
players are off the board at any kind of an analysis you try to 
do.
    So, you know, I don't know exactly what the answer is. My 
experience is limited to CIA. I found it a very challenging 
place to work. I resigned not because of CIA, but because I 
thought the 9/11 Commission had been a disaster for America by 
not finding anyone responsible for anything. I regret every 
day--or, at least I miss every day working there.
    But I really think that the problem is that kind of mid-
level, upper-mid-level, and upper-level people who actually 
carry the message to the President or to the Cabinet. You have 
to have a very tough, thick skin, and you have to not want to 
be the friend. You have to carry the bad news and say, 
``Whatever you think, Mr. President, and ultimately it is up to 
you. But whatever you think, your support for, say, Mr. 
Mubarak's government is one of the main causes that rally 
people to whatever negative anti-American force there is.'' And 
until you get that through, the senior level of the government 
is not even going to entertain that idea.
    Mr. Cooper. Would either of you two gentlemen care to 
comment?
    Dr. Arquilla. I would just remind Mr. Cooper that I work 
for the Navy. I am----
    Mr. Cooper. Yeah, but you are in the Postgraduate School. 
If there is a free-thinking part, presumably that would be it.
    Dr. Arquilla. Well, look, I enjoy the protections of civil 
service and tenure, but I have never felt the need to invoke 
any of them. It is a very lively environment. As I said, I 
spent a lot of time with a lot of our units in many places, and 
I have to tell you, there is a great deal of ferment. What 
boils down, when they come out at the end of the day and say, 
okay, we can only pull 8,000 out, there is a lively debate 
behind that. There is a big debate.
    I used to work a little bit with General Wayne Downing, who 
was a senior adviser to the President on counterterrorism. 
Before the invasion of Iraq, there were huge debates about 
whether to do it at all. If so, could we do it small and 
special, Afghanistan-plus instead of Desert Storm-minus. These 
are huge debates, and you never get to hear about them.
    And I think it is an organizational problem. What does the 
hierarchy do? It boils everything down to, here is this little 
output at the end of the day: 8,000 troops. A network 
approach--and I think this would be something that Congress and 
both parties should support and the American people should 
demand--is a sort of open airing of the ideas. In a network, 
all the ideas are out there.
    And I think, if there is one thing a National Security 
Advisor could do, it would be, instead of boiling away all the 
other options, to present them. There are a lot of fine 
thinkers in the military; we call them today the iron majors, 
the people in mid-career who, 10 years from now, are going to 
have stars. One of the iron majors is in the audience here 
listening this morning. Ten years from now, just where they are 
going, there aren't any roads. This is going to get very, very 
interesting.
    And so I would just suggest that even in the official world 
there is a lot of interesting debate. It is our organizational 
structures that prevent that from bubbling up to the top.
    Mr. Cooper. Dr. Arquilla, would you have a similar freedom 
of speech if you were a line officer?
    Dr. Arquilla. There are rules that are slightly more 
restrictive but not entirely so. And I have had serving 
officers working with me who have written articles. In fact, 
one of them, he did a seminar with me last summer, wrote a 
paper for it that was extremely challenging of the existing 
structure of things. And that paper he submitted to one of the 
leading strategic journals, Comparative Strategy, and it 
appeared in the latest issue.
    There is a lot of reluctance to do this, but there are 
officers who stand up increasingly. The iron majors are 
intimidated by nobody.
    Mr. Cooper. Dr. Jones, do you have a comment?
    Dr. Jones. I will just be very brief.
    I still believe that in a war, in a counterterrorism effort 
that is being fought, in most cases, in areas outside of the 
United States there continues to be a fundamental ignorance of 
the other cultures, including at top levels of the United 
States Government. And that certainly is reflected in two ways: 
Its efforts to counter this war of ideas by putting people on 
places like Al-Jazeera that don't even speak Arabic for the 
U.S. Government. I mean, what message are you sending to the 
locals who are listening? It has to be translated because you 
can't find a U.S. Government representative that can go on Al-
Jazeera that can speak Arabic. It also sometimes gets reflected 
in trying to do everything ourselves rather than, in some 
cases, working locally.
    So I think there is a fundamental, and continues to be a 
fundamental, ignorance of many of the countries that we operate 
in among our government, whether it is speaking the languages, 
understanding tribal networks, that in some cases has hampered 
our response.
    Mr. Cooper. Would RAND lose business if you pointed out how 
backward and counterproductive many senior U.S. officials' 
efforts are?
    Dr. Jones. We have done this on institutions and generals. 
So I think the answer is no.
    Mr. Smith. Thank you. I think that actually concludes the 
first round of questioning.
    I want to ask Dr. Arquilla and probably Dr. Scheuer, as 
well, you talked about the structure of the military. What I am 
curious about, in terms of our budgetary choices, is the 
systems that we have to pay for. And you seem to have a 
slightly different take than Dr. Scheuer, who seems to see a 
greater need for a conventional force. But a big-ticket part of 
where we are spending a lot of our money and how we sort of 
choose where to put our resources has to do with those systems.
    And could both of you comment a little bit on, as you see 
the structure of the military, what we need to buy, you know, 
airplanes, ships, submarines, tanks, Strykers, you know, where 
you think we should be putting our money; and, perhaps more 
importantly, where we shouldn't be putting our money?
    Dr. Arquilla. Well, I think we are a military of the few 
and the large, right? We are planning on having 11 aircraft 
carriers in perpetuity--Ford's, no less. Let's make sure we 
associate it with the President and not the vehicle.
    In any event, it seems to me that we are at a point now 
where we, when including war spending, are going at it at about 
$2 billion a day on defense. And from my own cursory review of 
this, about 90 cents on every dollar goes for industrial-age 
systems that just don't protect us anymore. So we are spending 
more and more to get less and less security. And my concern is 
that, as we look out upon the world, the investments others are 
making are very intriguing and very troubling.
    If I can stay with the naval example for a moment. We are 
continuing to build super carriers, a handful of them. And, by 
the way, their throughput, their capacity for flying planes is 
about the same as it was 60 years ago. What is our possible 
opponent in the future, a Chinese navy, doing? I guess they 
call it the People's Liberation Army Navy, which is a curious 
thing in its own right. They are not building carriers. They 
say they are going to build one one day, but there is no sign 
they are doing it. What are they building instead? Supersonic 
antiship missiles, smart mines that can position themselves 
right below the keel of a big ship and break its back. And 
something called a supercavitation torpedo that creates a 
bubble of air in front of it so that it can travel at hundreds 
of knot. What is our defense against that? Nothing. We hope it 
has poor guidance.
    So we have a fundamental problem here where other smart 
militaries that don't have the resources to burn that we do are 
investing extremely skillfully in advanced technology. So we 
keep investing in big conventional ticket items, which keeps us 
in the conventional warfare world in a time of irregular war. 
But the kicker to all this is that, if this big war comes 
along, we are going to face others who have invested more 
wisely in advanced technology.
    So I think we need--and, again, if I am on your side of the 
table, I would call for a moratorium on these legacy systems.
    Mr. Smith. And I am very much with you on that general 
focus. The one counterargument that I have heard is, if we go 
up in a big conventional war with China or Russia--which, by 
the way, I think we should studiously work to avoid in terms of 
our foreign policy. That, I think, the diplomacy there, make 
partners, not enemies, out of the large powers, is absolutely 
critical. If we do that, yes, the ships are not going to be 
helpful for the reasons you just stated.
    But the counterargument is, in the small world we live in, 
when we need to get a force to Afghanistan, when we need to get 
a force to Iraq, the carrier groups, you bring the carrier over 
there, you bring the battleships over there, they can launch 
cruise missiles, they can launch albeit a small numbers of 
planes. How do you counter that argument?
    Dr. Arquilla. Well, certainly you don't need aircraft 
carriers to send Special Forces over. I know they did that in 
Operation Enduring Freedom, which was like the biggest public 
relations (PR) story ever. You don't need to send 11 A-teams by 
an aircraft carrier. That is the world's most expensive taxi 
service.
    In terms of firing cruise missiles, any platform can do 
that. It doesn't have to be an aircraft carrier. In terms of 
aircraft, you have all kinds of other vessels that can launch 
short takeoff or vertical takeoff and landing. You don't need a 
super carrier to do that.
    But also, the Air Force knows how to find these places. In 
Operation Enduring Freedom, according to the Combined Air 
Operations Center, they dropped three-fourths of all the 
ordnance on the enemy. That is the right statistic.
    So we don't have trouble doing aerial bombardment, missile 
bombardment, or moving forces for the little side of things. So 
I don't think the argument about the carriers needed in 
irregular warfare is persuasive. And nor is it persuasive, 
really, in the next big war against whomever it may be.
    Mr. Smith. Thank you.
    Dr. Scheuer, if you could take a stab at it.
    Dr. Scheuer. Sir, thank you.
    It is not really--I think probably Dr. Arquilla is exactly 
right in the way we need to go, but the problem is there is a 
great gap in the time from where we are to where we need to be. 
And one of the legacy systems we have, in a sense, is a Cold 
War mentality, that somehow the enemy is going to sit there and 
wait for us to get there to kill them. And we will get our act 
together after eight or nine years, and they will be there 
waiting for us to do them in. And that is not the case.
    So, to me, the big problem in what we buy and what we do is 
not only that we buy systems that perhaps aren't useful--I 
can't imagine, for example, buying the Raptor instead of a 
ground support aircraft to help those people that are fighting 
our wars elsewhere--but the whole idea that the enemy isn't 
adaptable, doesn't have a timetable of his own, sir.
    Whatever we are going to do to change, do it. Stop talking 
about it, and do it. Because this is an enemy that is not 
like--there is no stand-off between us and the Soviets anymore. 
The bad guys are out there conniving and finding ways to get at 
us. And so, to me, whatever we are going to do for structure, 
get your best brains together and then move, because we can't 
wait.
    Mr. Smith. Thank you very much.
    Mr. Thornberry.
    Mr. Thornberry. Fascinating discussion which would be 
worthy of us pursuing. I want to go back to terrorism for just 
a second.
    Dr. Scheuer, you make a big deal that this is not 
terrorism, this is insurgency. But Dr. Jones, in his study, 
says that terrorism is the use of politically motivated 
violence against noncombatants to cause intimidation or fear 
among a target audience.
    I am not sure I--I mean, it seems to me that applies. But, 
secondly, I am not sure I understand why it matters, the 
difference. Please explain why you think that distinction is so 
important for us.
    Dr. Scheuer. I think it matters because we have 
underestimated the strength, durability and the resiliency of 
the enemy. We still have Presidents or potential Presidents 
telling us we are going to bring these people to justice one at 
a time. Clearly, to my own particular instance, we leveled more 
destruction on al Qa'ida between 1995 and 2001 than almost any 
other group that I can think of, and yet 9/11 happened.
    ``Terrorism'' is a term that blinkers our ability to 
perceive the enemy, because terrorists are by definition evil, 
small in number, on the lunatic fringe, maybe the lunatic 
fringe of the lunatic fringe, and somehow they are not a 
credible threat; they are something that is like a bug, you 
need to stamp it out. We have certainly failed to do that, 
because they are not terrorists. You know, your definition you 
just read of political violence could very well be applied to 
the bombing of Tokyo, to which I have no objections; we won the 
war.
    But terrorism is just something that, to me anyway, was 
dreamed up by U.S. policy and Western policymakers who didn't 
want to respond to an act of war with our military but rather 
wanted to goof around. You know, blowing up the United airliner 
over Scotland wasn't a terrorist activity, it was an act of 
war, and it should have been handled in that manner.
    Mr. Thornberry. It seemed to me terrorism is a tactic 
rather----
    Dr. Scheuer. Sir, what I would say is one of the 
detrimental things for the United States is the very smallest 
number percentage of al Qa'ida are what we would call 
``terrorists.'' They would call them their special forces. The 
next biggest group are either their insurgents or their 
insurgent trainers.
    The biggest part of al Qa'ida is the logistics, finance, 
safe haven part, and media part these days. So what we are 
doing by focusing on the terrorist side of it is we are 
attacking maybe one-twelfth of the organization, sir.
    Mr. Thornberry. Dr. Arquilla, you gave specific 
recommendations for how the military needs to be restructured 
in small groups. One of the things that we have talked about a 
lot over the last two years in this subcommittee is the need to 
not just bring the military to this struggle but the whole 
government.
    Talk to me a little bit, if you can, about a government-
wide network, not just a military network, on these problems.
    Dr. Arquilla. It is a brilliant idea. I think a government 
networked approach to dealing with terrorism, irregular 
warfare, the security questions of our time, would be one in 
which the collective intelligence of all our soldiers and civil 
servants and interested folks out in the country and commerce, 
education, civil society, the best ideas would come forward. 
One of the biggest insights about networks is when you bring a 
collective intelligence together--that is, everyone is allowed 
to weigh in their opinion--great ideas come forward.
    If I can give you a little example, I don't know if any of 
you play chess. I will be very brief about this. Go to 
chessgames.com, and what you will find is a great player, 
usually a former world champion, challenges the world, and 
about 8,000 people sign up. They are a little network; they 
have their own little page where they discuss and debate what 
to do next. And the collective intelligence so far has beaten 
every former world champion it has played.
    And there are other experiments. In Japan, they had a 
virtual manager for a minor league team for a while. Anybody in 
the stands or watching or listening to the game could vote on: 
send the runner to steal second, bunt here, do this or that. 
The year they did that--it was a tech company that owned the 
minor league team. The year they did that, they won their 
division.
    Now, I am not saying we do all of that, but my guess is 
this: If we took a problem like Afghanistan, and instead of the 
planning cell that my nephew commands, we took 100 officers and 
we put them into 25 small teams and we paired them up with 
State Department, intelligence, law enforcement, and maybe even 
had a liaison officer from another country on it, just say, 
okay, come up with some good ideas for how to deal with this, 
my experience has always been that collective intelligence will 
drive you to the best answer and it will do so most quickly.
    I had a doctoral student at my school who just graduated, 
another iron major, Major Todd Lewelling, who is now teaching 
at the Air Force Academy, studied terrorist problems of 
detecting a terrorist attack. We ran a controlled experiment 
with dozens of teams; half were organized as hierarchies, half 
as networks. The hierarchies had a commander, information 
flowed up channels; the networks, everyone shared all the 
information. Not only did the networks get to the right answer 
about 30 percent more of the time, but they got to the right 
answer more than 50 percent faster.
    So I think there are structures. It is not a commission, it 
is not a task force, there is no czars. At best, it is a 
network administer. But, please, let's start doing this.
    Mr. Smith. Mr. Cooper, did you have anything else you 
wanted to add?
    Mr. Cooper. There are many types of unconventional 
warfare--electronic, take your pick. Would financial warfare 
also be part of someone's arsenal?
    For example, you take something like a sovereign wealth 
fund of another nation or a more shadowy form of capital, even 
short stocks, bet against America, alone or in groups, to take 
down significant financial institutions by having such 
massive----
    Mr. Smith. I think we are capable of doing that all on our 
own, apparently, so I think they probably don't want to get in 
our way.
    Mr. Cooper. But the traditional financial model is people 
live in this country and they don't want to bet against it too 
much. If they don't live here and in fact have deep hatred for 
everything we stand for and they have got plenty of 
petrodollars or other dollars, what keeps them, especially with 
anonymous trading, from taking what would be ordinarily an 
irrationally negative position but one that could be a self-
fulfilling prophecy if you have enough tens of billions of 
dollars backing up that attack?
    And one challenge we face in such an open society is 
everything is transparent here. And sometimes we don't realize 
the terrific leverage that, for example, a digital camera had 
at Abu Ghraib.
    So, you know, if we are going to be smarter and faster than 
the enemy, don't we need to anticipate and at least be able to 
react in a timely fashion to things that could well make sense?
    And it is double destruction, because not only are they 
able to do irreparable harm here, but they profit at the same 
time.
    So, I know you all are defense specialists, you are not 
financial specialists. And the Securities and Exchange 
Commission (SEC) yesterday put back in the rule against naked 
short-selling. But still, that is just a requirement that, 
within three days, you show that you had at least temporary 
possession of the stock or the bond. But that is about like 
telling a murderer, ``Oh, yeah, show up with the bloody shirt 
or the underwear.'' You know, this is three days later. This 
is, for nonfinance people, this is a different area. But we are 
such an open, vulnerable society in so many ways. We didn't 
expect that airplanes could be gasoline bombs.
    So, where is our red team to really outthink the enemy, 
whether it is supercavitation or whether it is other things? 
What group in the Pentagon or related to the Pentagon or in our 
country is really giving hard, urgent thought to these 
questions?
    Dr. Scheuer. Mr. Cooper, I am certainly not capable, in 
terms of answering the financial question. But I think the one 
thing that we very often do is to ignore the expertise within 
our own government. It is not a question of not having the 
smart people. We have an extraordinary array of talented people 
in the United States Government across the board. And not only 
that, but in my experience now, since having resigned, you 
asked earlier about freedom of speech and ideas that are 
acceptable or unacceptable, I would say that within the U.S. 
Government and military, the discussion is much more 
independent and pointed than anything that goes on in the 
Academy. I have taught now at university, and it is a much more 
restricted degree of acceptability at the university than it 
was at the CIA.
    So, again, I think you have, in terms of brain power, you 
have an enormous, wonderful mass of that within the United 
States Government. It is just a matter of getting the solution 
to the place and having it acceptable. Because some aspects of 
a solution will not be maintaining the status quo.
    Mr. Cooper. But, Dr. Scheuer, as you pointed out, there are 
a couple problems. One, you have a bureaucratic master who is 
reluctant to deliver bad news. Number two, some folks don't 
want to deal with reality. They prefer a different view of the 
world.
    Dr. Scheuer. Yes, sir.
    Mr. Cooper. Facts are not popular things with some 
political leaders. We, sadly, have an informal rule on this 
committee; we don't hear testimony from folks below the rank of 
general, unless it is a Marine colonel. You know, the iron 
majors are seldom, if ever, called to testify. That is crazy. 
We need to correct that.
    So how do we tap in--and I know networking is a great way 
to do it, and I am all for that. But----
    Dr. Scheuer. Sir, within my own personal experience, there 
is nothing that the Agency worries more about than you guys 
asking for someone to come up who has not got nine stars on his 
shoulder. And, ultimately, the power of the Congress to get 
whatever information it wants from whatever level, at least 
within the CIA, was certainly within your purview, sir. If you 
wanted to hear a General Schedule (GS-9) talk about what was 
going on in Nigeria, you would get him. But you have to ask for 
him.
    Mr. Cooper. We haven't been able to be briefed on Sy 
Hersh's article five weeks ago in The New Yorker on ground 
troops in Iran. And that is already in The New Yorker magazine.
    Dr. Scheuer. I don't know what the answer is then, sir. But 
I know, you know, the brain power is there. How you get it--I 
am afraid what is going to be needed to be done, frankly, on 
all these things, whether it is a decision of the structure 
about the military about getting the brains of the U.S. 
Government up to talk to the leaders of the U.S. Government, is 
going to be a disastrous attack within the United States. 
Thousands and thousands of dead Americans will generate, at 
last, some kind of frank debate about what we are doing and why 
we are doing it.
    Mr. Smith. I want to get to Mr. Saxton, but I think you 
seek those people out, I mean, also. I guess I don't agree that 
all of our leaders are blissfully and completely ignorant of 
any thought, other than the generals. I just don't buy into 
that. I personally go out, if I want to talk to lieutenants, 
corporals, whatever, I go out to Fort Lewis and I talk to them, 
I go to Iraq and I talk to them. We seek them out; we sit down 
in our office in a variety of different ways. I guess we are 
not all quite as dumb as it might be portrayed. We do get out 
and seek out a diverse set of opinions.
    Hearings are different, because there is a bunch of control 
that comes down from the military and different places. But I, 
for one, don't--as brilliant as I think the three of you are, I 
don't rely solely on what you are talking to us about in this 
hour and a half to form my opinions, and I don't think most 
Members of Congress do either.
    Mr. Saxton, do you have anything to add?
    Mr. Saxton. I would just like to ask Dr. Arquilla one final 
question.
    I don't know how I have missed your book, Dr. Arquilla. It 
is a fascinating title, ``Worst Enemy: The Reluctant 
Transformation of the American Military.'' I will read it. But 
it prompts me, the title prompts me to ask you a question about 
the U.S. military.
    You must have spent a fair amount of time thinking about 
and having discussions about what makes it so hard to change 
the military. I would just like to ask you, are there some 
characteristics in the structure of the military and in the 
practices of the military that make it difficult to change?
    Dr. Arquilla. Yes, sir. And thanks for reading the book.
    The title comes from a speech Donald Rumsfeld gave on 
September 10, 2001, in the Pentagon in which he said that our 
worst enemy is ourselves, and not the people but the processes, 
I think was the phrasing he used. And I guess his memoir will 
come out in one of these years. He very much is a network guy, 
and he tried to break down a lot of the hierarchies to enforce 
some kind of change.
    And, you know, here is a steely Secretary of Defense who 
had the full support for six years of a very bold Commander in 
Chief, and yet, between the two of them, they couldn't move 
that rock very far. And my experience over the past couple 
decades suggests they tried to do it from the top down, and the 
only way to make this kind of change happen is from within.
    And I would say, so there is the institutional problem; 
that is, I don't think a lot of people have taken networking 
seriously. That is the real organizational insight of the time 
we live in. And some folks are starting to get there. I know a 
lot of mid-level officers, I know everybody who was in Anbar 
during the Awakening is a believer in networks now, and the 
Special Forces in the 7th group in Afghanistan believe that 
now. And so that is going to spread.
    But there is a larger cultural point about militaries 
that--and I respect this very much, even though I am suggesting 
that this is the time for change. And that is, think of the 
stakes in what they do. How many professions are as physically 
demanding, intellectually demanding, ethically and morally 
demanding? And the consequences of wrong action are so great. 
So I understand the risk-aversive point of view.
    My only point and the reason I entered this debate is to 
suggest that sometimes it is the failure to change that can 
engender even greater risks. Think about the militaries of 
1914, the first years of World War I. They were afraid to make 
changes that might lose a war. Well, what they did is they sent 
millions of soldiers off, shoulder to shoulder, marching 
against artillery and machine guns, and millions died 
needlessly. The risk of not changing was greater than the risk 
of change, which they ultimately got to by 1917, 1918.
    Well, that is where we are in this terror war that we find 
ourselves in, this first struggle between nations and networks. 
We are slowly ramping up. But I understand this reluctance. It 
grows out of our institutions. But it also grows out of the 
culture of a profession that is a very dangerous and demanding 
one and for whom the stakes could not be possibly higher.
    Mr. Smith. Thank you.
    I have one final question, getting back to the policy 
issues that Dr. Scheuer raised and some others mentioned that I 
think are perfectly legitimate when you look at what we are 
fighting against in terms of violent extremists in the Muslim 
world. I think the 5 percent, 80 percent figures probably are 
right on. It is about 5 percent that sign up for al Qa'ida and 
all they are talking about, but there is at least 80 percent 
that are sympathetic to the notion that the West is hostile to 
Islam and that our policies move that forward, and that is why 
they find sympathy.
    Just sort of imagining what the policy would be if we were 
trying to address that, and my thinking about it is a touch 
more complicated. Certainly Israel, Kashmir, our support for 
oppressive regimes like Egypt and Saudi Arabia are factors. But 
when we put sanctions on Saddam Hussein, when we didn't support 
that oppressive regime, that, too, had a major backlash against 
us.
    In Afghanistan, where I know you were very involved, the 
rap after the Soviets were driven out was that we left, was 
that we didn't stay. And I imagine if we had stayed, the rap 
would have been we stayed and we are trying to manipulate. It 
seems like we sort of get it both ways.
    And I do think, at least most of the policymakers that I 
talk to, are aware of the fact that that drives a good portion 
of al Qa'ida's support and of the violent extremist support. I 
guess what we struggle with is, what is the right policy?
    You mentioned the Taliban, and how Afghanistan was more 
stable under them. Very true. You know, we left it alone, and 
al Qa'ida found a safe haven and launched 9/11 against us. So 
just sort of staying away, in that instance, didn't seem to 
work out too well.
    So I guess the question isn't a lack of recognition that 
our policies does drive some of this. The question is, at this 
point, given 100 years of very questionable history, the 
overthrow of the democratically elected government of Iran back 
in the 1950's, the post World War I, all of that, how do we 
begin to repair that relationship with that portion of the 
Muslim world that isn't buying into al Qa'ida but is looking 
for some reason to believe that we don't mean harm to them?
    Dr. Scheuer. You know, sir, I think the organizing concept 
of the United States Government should be to protect the United 
States and decide where we need to be at any particular time.
    The idea that we abandoned Afghanistan is very popular 
urban legend, but the exact opposite is the truth. We assembled 
basically the same team, Mr. Khalilzad and the Brits and the 
U.N., and tried to go in there in 1992 and put in the exactly 
the same kind of government that is in there today. Mr. 
Karzai's father was part of it.
    Had we left the Afghans alone, more than likely they would 
have found their own water. But we didn't. As soon as the 
Soviets were gone and the communist regime was defeated, we 
wanted--as Mr. Rumsfeld said in Iraq, any kind of government is 
okay as long as it is not Islamic. So what we tried to do is to 
put in a government that didn't include anyone who carried a 
rifle.
    So the idea that we abandoned Afghanistan, Lord wishes it 
was true, but it wasn't. We tried to do what we are trying to 
do there now. And it failed then; it will fail now.
    I think there are places in the world where the United 
States simply does not need to care what goes on if we arrange 
our policy preferences.
    Mr. Smith. Do you think Iraq and Afghanistan are two of 
those places right now?
    Dr. Scheuer. I think we don't have a single----
    Mr. Smith. I don't mean that challenging. I am sincerely 
interested.
    Dr. Scheuer. In Afghanistan, if we had gone there and 
destroyed what we could have of the Taliban and al Qa'ida and 
let them escape, absolutely, we would have no more interest 
there. We have as much chance of building a democracy there as 
we have of building national socialism in Texas. It is never 
going to happen. It is just foolishness, sir.
    Mr. Smith. What should our role be, then, in those two 
countries?
    Dr. Scheuer. Certainly in Iraq, we should pray for somebody 
to come back that is much like Saddam Hussein. Saddam was our 
single most important ally in the war against al Qa'ida and its 
networks. As long as he was in Kabul, that bottle was corked--
or in Baghdad, that bottle was corked. Those boys were staying 
in southwest Asia.
    Mr. Smith. But I thought our support for brutal dictators 
in the Arab world was a big part of our problem.
    Dr. Scheuer. Oh, it is a problem, sir. But this is not win 
or lose. We have a bunch of lose-lose situations. But the enemy 
who could attack us in the United States happened to be al 
Qa'ida, not Saddam. And Saddam was hell on wheels when it came 
to Islamists, except for the Palestinians, who weren't 
attacking us.
    Mr. Smith. I guess a simple question is, should we support 
dictatorships in that part of the world or shouldn't we?
    Dr. Scheuer. If we have that choice, sir, we have to decide 
what is in America's interest. But right now we don't have that 
choice. Because we have done nothing about oil in 35 years, we 
have to support the tyrannies that run the Arab peninsula. 
Because we have to have somebody who pretends they don't hate 
the Israelis, we have to continue to bribe Mubarak and keep him 
in power.
    It is not an option of whether we are or not. That is where 
we want to go; we want to have the option. But the problem we 
have is we have no option, and we refuse to recognize that our 
support for those governments drives much of what al Qa'ida is 
about.
    Mr. Smith. I have nothing further.
    Mac, do you have anything?
    Thank you very much. It was a fascinating, fascinating 
discussion. I certainly want to stay in touch with all of you, 
myself and on this committee. Thank you for spending time with 
us this morning.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                           September 18, 2008

  ===================================================================




      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 18, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 53568.001
    
    [GRAPHIC] [TIFF OMITTED] 53568.002
    
    [GRAPHIC] [TIFF OMITTED] 53568.003
    
    [GRAPHIC] [TIFF OMITTED] 53568.004
    
    [GRAPHIC] [TIFF OMITTED] 53568.005
    
    [GRAPHIC] [TIFF OMITTED] 53568.006
    
    [GRAPHIC] [TIFF OMITTED] 53568.007
    
    [GRAPHIC] [TIFF OMITTED] 53568.008
    
    [GRAPHIC] [TIFF OMITTED] 53568.009
    
    [GRAPHIC] [TIFF OMITTED] 53568.010
    
    [GRAPHIC] [TIFF OMITTED] 53568.011
    
    [GRAPHIC] [TIFF OMITTED] 53568.012
    
    [GRAPHIC] [TIFF OMITTED] 53568.013
    
    [GRAPHIC] [TIFF OMITTED] 53568.014
    
    [GRAPHIC] [TIFF OMITTED] 53568.015
    
    [GRAPHIC] [TIFF OMITTED] 53568.016
    
    [GRAPHIC] [TIFF OMITTED] 53568.017
    
    [GRAPHIC] [TIFF OMITTED] 53568.018
    
    [GRAPHIC] [TIFF OMITTED] 53568.019
    
    [GRAPHIC] [TIFF OMITTED] 53568.020
    
    [GRAPHIC] [TIFF OMITTED] 53568.021
    
    [GRAPHIC] [TIFF OMITTED] 53568.022
    
    [GRAPHIC] [TIFF OMITTED] 53568.023
    
    [GRAPHIC] [TIFF OMITTED] 53568.024
    
    [GRAPHIC] [TIFF OMITTED] 53568.025
    
    [GRAPHIC] [TIFF OMITTED] 53568.026
    
    [GRAPHIC] [TIFF OMITTED] 53568.027
    
    [GRAPHIC] [TIFF OMITTED] 53568.028
    
    [GRAPHIC] [TIFF OMITTED] 53568.029
    
    [GRAPHIC] [TIFF OMITTED] 53568.030
    
    [GRAPHIC] [TIFF OMITTED] 53568.031
    
    [GRAPHIC] [TIFF OMITTED] 53568.032
    
    [GRAPHIC] [TIFF OMITTED] 53568.033
    
    [GRAPHIC] [TIFF OMITTED] 53568.034
    
    [GRAPHIC] [TIFF OMITTED] 53568.035
    
    [GRAPHIC] [TIFF OMITTED] 53568.036
    
    [GRAPHIC] [TIFF OMITTED] 53568.037
    
    [GRAPHIC] [TIFF OMITTED] 53568.038
    
    [GRAPHIC] [TIFF OMITTED] 53568.039
    
                                  <all>

</pre></body></html>
